App. 1
Third District Court of Appeal
State of Florida
Opinion filed November 21, 2018.
Not final until disposition of timely
filed motion for rehearing.
No. 3D18-1117
Lower Tribunal No. 15-27596

Lizette Olaechea, etc.,
Appellant,
vs.
Grace Olaechea,
Appellee.
An Appeal from the Circuit Court for Miami-Dade
County, John W. Thornton, Jr., Judge.
Nancy C. Wear, for appellant.
Corona Law Firm, P.A., and Ricardo Corona and
Ricardo M. Corona, for appellee.
Before EMAS, SCALES and LINDSEY, JJ.
PER CURIAM.
Lizette Olaechea, the defendant below, appeals en­
try of final judgment in favor of Grace Olaechea, the
plaintiff below, after a bench trial on claims for conver­
sion, forgery, unjust enrichment, breach of fiduciary
duty and a constructive trust. In the final judgment,

App. 2
the lower court awarded Grace Olaechea $419,750.43,
plus interest, and imposed an equitable lien on the pri­
mary residence of Lizette Olaechea and her husband,
Gabor Simmonds. We affirm entry of the final judg­
ment and imposition of the equitable lien without dis­
cussion. See Palm Beach Sav. & Loan Ass’n v. Fishbein,
619 So. 2d 267, 270-71 (Fla. 1993) (confirming that an
equitable lien may be imposed on homestead property
where funds obtained through fraud were used to pur­
chase the homestead, and even where one spouse was
not a party to the fraud).1
Affirmed.

1 We note that because Mr. Simmonds was neither a party to
the proceedings in the lower court, nor a participant in this ap­
peal, our decision is without prejudice to - and we express no
opinion regarding - any defense Mr. Simmonds might assert to
any subsequent foreclosure proceedings on the subject equitable
lien.

App. 3
IN THE CIRCUIT COURT
OF THE JUDICIAL
CIRCUIT IN AND
FOR MIAMI-DADE
COUNTY, FLORIDA
GENERAL JURISDICTION
GRACE OLAECHEA,
Plaintiff,

CASE NO.
2015-027596-CA-01

vs.
LIZETTE OLAECHEA, AKA
Defendant
FINAL JUDGMENT
(Filed Feb. 22, 2018)
THIS MATTER was tried before this Honorable Court
on February 16, 2018. Having considered the evi­
denced [sic], having weighed the credibility of the tes­
timony presented, and having heard the argument for
Plaintiff Grace Olaechea (mother of defendant) and
Defendant Lizette Olaechea aka Lizette Simmonds
(daughter of plaintiff), this Court FINDS, ORDERS,
AND ADJUDGES:
FINDINGS OF FACT
1.

The Plaintiff mother was the sole beneficiary
of a life insurance policy from New York Life
Insurance owned by Gertrud Ida Martha
Wunderlich (hereinafter “Decedent”)-

App. 4
2.

On August 3, 2013, the Decedent passes and
the Plaintiff was entitled to collect the sum
of $419,750.43 in the form of two (2) checks:
1) $71,450.27 and 2) $348,300.16.

3.

On or about August 9, 2013, Defendant
daughter took Plaintiff mother to a Miami
Lakes branch of Chase Bank and as a result
Plaintiff was added to an existing account be­
longing to Defendant, to-wit: Checking Ac­
count #0670.

4.

Defendant testified that the Plaintiff did not
want to add the Defendant to the Plaintiffs
bank account.

5.

Plaintiff reasonably relied on Defendant’s
misrepresentations to her detriment due to
the close and trusting relationship with De­
fendant as Mother and Daughter.

6.

On or about August 16,2013, Defendant inter­
cepted the two (2) New York Life Insurance
checks, in the sum of $419,750.43, prior to
reaching Plaintiff.

7.

The Defendant testified that the check was
never delivered to the Plaintiff and the De­
fendant never gave the check to the Plaintiff.

8.

On or about August 22,2013, Defendant wrote
Plaintiff’s name on the back of the check and
deposited the two (2) New York Life Insurance
checks into their joint Checking Account
#0670.

9.

On August 22, 2013, Defendant transferred
$419,000.00 to a savings account, ending in

App. 5
#7922, which was in the sole name of the De­
fendant daughter.
10. On August 27, 2013, Defendant withdrew
$400,000.00 from savings account ending in
#7922.
11. From Plaintiffs funds, Defendant used
$253,000.00 to purchase real property in
Broward County, more particularly described
as: BONAVENTURE LAKES ADD 2 91-32 B
LOT 6 LESS S 10.74 BLK 15 AKA: PARCEL
A aka 551 S.W. 168th Terr., Weston, FL 33326.
12. The Plaintiff filed the instant action on No­
vember 27, 2015 with an Amended Complaint
filed on March 17, 2016.
COUNT I: CONVERSION
13. Plaintiff mother has met her burden in estab­
lishing the elements of Conversion in order to
recover from Defendant daughter as to Count
I of this cause of action.
14. Defendant wrongfully obtained the New York
Life Insurance checks with intent to exercise
ownership that was inconsistent with the
Plaintiffs right of possession by: 1) fraudu­
lently intercepting Plaintiff’s check, 2) forging
Plaintiff’s name to indorse the checks without
Plaintiff’s consent and 3) improperly transfer­
ring the funds to a private savings account
that solely belonged to Defendant and imme­
diately withdrawing $400,000.00 as soon as
the funds were available for withdrawal. See

App. 6
Ginsberg v. Lennar Florida Holdings, Inc., 645
So. 2d 490, 500 (Fla. 3d DCA 1994).
15. The record evidence provides that: 1) De­
fendant unequivocally forged Plaintiff’s name
through the undisputed testimony of De­
fendant and through Ms. Dianne C. Flores, a
handwriting expert witness, 2) the New York
Life Insurance checks was [sic] never received
by Plaintiff and was received by Defendant as
stated through the testimony of Defendant,
and 3) Defendant has provided no credible ev­
idence in the record which shows that Plain­
tiff consented to Defendant’s ownership of the
two checks or Defendant’s forgery of Plaintiffs
name.
16. Defendant has failed to provide any credible
record evidence establishing the elements of a
gift: 1) present donative intent; 2) delivery;
and 3) acceptance by the donee. See Sullivan
v. American Telephone and Telegraph Com­
pany, Inc., et al, 230 So. 2d 18 (Fla. 4th DCA
1969).
COUNT II: FORGERY
17. Plaintiff has met her burden in establishing
the elements of forgery in order to recover
from Defendant as to Count II of this cause of
action.
18. It is undisputed that in forging Plaintiff
mother’s endorsement for the two (2) New
York Life Insurance checks, Defendant daugh­
ter made a writing which falsely purports to

App. 7
be the writing of Plaintiff and that it was
made with the purpose of defrauding the
Plaintiff and obtaining funds which rightfully
belonged to the Plaintiff as the beneficiary
of the New York Life Insurance. See Bennett
v. Mortgage Elec. Registration Sys., Inc., 230
So. 3d 100,107 (Fla. 3d DCA 2017).
19. The record evidence provides that Defendant
unequivocally forged Plaintiffs name through
the undisputed testimony of assent to the for­
gery by Defendant.
20. Furthermore, Dianne C. Flores, a handwriting
expert witness, provided expert testimony, af­
ter reviewing, analyzing and comparing hand­
writing document specimens of the Plaintiff
and Defendant, which unequivocally identi­
fied Defendant as creating the writing on the
disputed New York Life Insurance checks.
21. Defendant has failed to provide any credible
record evidence that Plaintiff consented or
authorized Defendant’s forgery of Plaintiffs
name. See National Bank of Melbourne and
Trust Co. v. Batchelor, 266 So. 2d 185 (Fla. 4th
DCA 1972).
COUNT III: UNJUST ENRICHMENT
22. Additionally, Plaintiff has met her burden in
establishing the elements for unjust enrich­
ment in order to recover from Defendant as to
Count III of this cause of action.
23. It is undisputed that: 1) Plaintiff conferred a
benefit to Defendant by Defendant intercepting

App. 8
two (2) New York Life Insurance checks and
the benefit of the full amount of the funds
from the checks; 2) Defendant voluntarily
accepted the benefit by forging Plaintiff’s en­
dorsement, depositing the checks and retain­
ing the funds by subsequently transferring
the funds to a savings account solely in De­
fendant’s name and immediately withdraw­
ing $400,000.00; and 3) the circumstances of
Defendant forging Plaintiff’s name without
Plaintiff receiving a benefit in return would be
inequitable for the Defendant to retain the
benefit without paying the value thereof to
the Plaintiff. See Extraordinary Title Services,
LLC. v. FLP, Co., 1 So. 3d 400 (Fla. 3d DCA
2009).
24. Defendant has failed to provide any credible
record evidence establishing the elements of a
gift.
COUNT IV: BREACH OF FIDUCIARY DUTY
25. Plaintiff has met her burden in establishing
the elements for Breach of Fiduciary Duty in
order to recover from Defendant as to Count
IV of this cause of action.
26. It is undisputed that a fiduciary relationship
of trust and confidence was established between
Plaintiff and Defendant due to: 1) Plaintiff
and Defendant having a close relationship of
mother and daughter; 2) Defendant assisting
Plaintiff with reading, reviewing and analyz­
ing documents that were in English for Plain­
tiff, and 3) Defendant and Plaintiff living with

App. 9
each other for approximately forty years. See
Gracey v. Eaker, 837 So. 2d 348 (Fla. 2002).
27. The breach of fiduciary duty was established
when Defendant: 1) fraudulently intercepted
Plaintiff’s New York Life Insurance checks,
2) forged Plaintiff’s name on the checks with­
out Plaintiff’s consent and 3) improperly trans­
ferred the funds to a private savings account
that solely belonged to Defendant which the
Defendant indisputably immediately with­
drew $400,000.00 of said funds.
28. The record evidence provides that a fiduciary
relationship existed between Plaintiff and De­
fendant through the undisputed testimony of
assent by Plaintiff and Defendant.
COUNT V: CONSTRUCTIVE TRUST
29. Plaintiff has met her burden in establishing
the elements to impose a Constructive Trust
in order to recover from Defendant.
30. It is undisputed that a constructive trust was
established due to: 1) an implied promise was
made by Defendant to assist Plaintiff during
her cancer treatment, 2) Defendant receiving
the two (2) New York Life Insurance checks
prior to Plaintiffs receipt, 3) a confidential re­
lationship existed as established in Count IV
herein; and 4) Defendant has been unjustly
enriched as established in Count III herein.
See Saporta v. Saporta, 766 So. 2d 379 (Fla. 3d
DCA 2007).

App. 10
31. The Florida Supreme Court, in Havoco of
America. Ltd. v. Hill. 790 So. 2d 1018, 1025
(Fla. 2001), recognized an equitable lien on
homestead as “a viable remedy for creditors in
cases where funds obtained fraudulently were
used to produce, invest in or improve a home­
stead.” See also Smith v. Smith, 761 So. 2d 370
(Fla. 5th DCA 2000) (and its discussion of Ar­
ticle X, Section 4 of the Florida Constitution
exceptions.)
32. In Havoco, supra, the Florida Supreme Court
recognized the appropriateness of an equita­
ble lien in cases in which the funds, obtained
through fraud or egregious conduct, can be
directly traced to the investment, purchase
or improvement of homestead. See also In re
Crum, 294 B.R. 402 (Bkrcty. Ct. M.D. Fla.
2003). Ryskind v. Robinson. 302 So.2d 427,
428 (Fla 4th DCA 1974).
33. In the instant case, an equitable lien or con­
structive trust can be imposed on the Defend­
ant’s property as the evidence was unrefuted
that the Defendant used $253,000.00 from the
proceeds of the funds from the two checks to
purchase the real property identified as 551
S.W. 168th Terr., Weston, FL 33326.
34. It has been held that an equitable lien may be
imposed on homestead exemption even when
the husband did not participate in his wife’s
fraud. It has been noted that “if the proceeds
of Defendant Husband’s fraud can be traced
directly to the jointly owned homestead, the
court’s ability to impose an equitable lien is

App. 11
not impaired by the fact that no fraud has
been established on the part of Defendant’s
wife.” In re Crum, supra at 405.
35. Defendant has failed to provide any credible
record evidence establishing the elements of a
gift.
Based upon the foregoing, it is hereby OR­
DERED AND ADJUDGED:
36. For Counts I, II, III, IV, and V, Plaintiff
GRACE OLAECHEA shall recover from the
Defendant LIZETTE OLAECHEA aka LIZETTE
SIMMONDS the total sum of $419,750.43
plus pre judgment interest at 4.75% of
$89,748.97 totaling $509,499.40 which shall
bear interest at the statutory rate of 5.53%,
for which let execution issue forthwith.
37. Plaintiff GRACE OLAECHEA shall be enti­
tled, and this Court imposes, an equitable lien
to be recorded on the primary residence be­
longing to Defendant LIZETTE OLAECHEA
aka LIZETTE SIMMONDS and her husband,
GABOR SIMMONDS, for real property 551
S.W. 168th Terr, Weston, FL 33326 as a result
of using fraudulent funds rightfully belonging
to Plaintiff to purchase the real property. See
Havoco of America, Ltd. u. Hill, 790 So. 2d
1018,1025 (Fla. 2001) (finding that an equita­
ble lien on homestead is a “viable remedy for
creditors in cases where funds obtained fraud­
ulently were used to produce, invest in or im­
prove a homestead.”).

App. 12
38. The Court reserves jurisdiction to address
post judgment recovery issues relating to this
Final Judgment and to address any post judg­
ment motions for attorneys fees and costs.
DONE AND ORDERED in Chambers at Miami-Dade County, Florida, on 02/22/18.
/s/ John W. Thornton
JOHN W. THORNTON
CIRCUIT COURT JUDGE

App. 13
FINAL ORDERS AS TO
ALL PARTIES SRS
DISPOSITION NUMBER 3
THE COURT DISMISSES
THIS CASE AGAINST ANY
PARTY NOT LISTED IN
THIS FINAL ORDER OR
PREVIOUS ORDER(S).
THIS CASE IS CLOSED
AS TO ALL PARTIES.
Judge’s Initials JWT
The parties served with this Order are indicated in the
accompanying 11th Circuit email confirmation which
includes all emails provided by the submitter. The mo­
vant shall IMMEDIATELY serve a true and correct
copy of this Order, by mail, facsimile, email or handdelivery, to all parties/counsel of record for whom ser­
vice is not indicated by the accompanying 11th Circuit
confirmation, and file proof of service with the Clerk of
Court.
Signed and stamped original Order sent to court file by
Judge Thornton’s staff.
Copies Furnished to:
Michelle Ramos, Esq., 3899 NW 7th Street, Second
floor, Miami, FL 33126; mramos@coronapa.com civil@
coronapa.com; (Counsel for Plaintiff)
Lizette Olaechea, 551 S.W. 168th Terr., Weston, FL
33326 (Defendant).

App. 14
Supreme Court of Florida
THURSDAY, MAY 30, 2019
CASE NO.: SC 18-2096
Lower Tribunal No(s).:
3D18-1117; 132015CA027596000001
LIZETTE OLAECHEA, ETC. vs. GRACE OLAECHEA
Petitioner(s)

Respondent(s)

This cause having heretofore been submitted to
the Court on jurisdictional briefs and portions of the
record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the
Court having determined that it should decline to ac­
cept jurisdiction, it is ordered that the petition for re­
view is denied.
No motion for rehearing will be entertained by the
Court. See Fla. R. App. R 9.330(d)(2).
POLSTON, LABARGA, LAWSON, LAGOA, and LUCK,
JJ., concur.
A True Copy

Test:
/s/ John A. Tomasino
John A. Tomasino
Clerk, Supreme Court

[SEAL]

App. 15
dl
Served:
MICHELLE RAMOS
RICARDO M. CORONA
LIZETTE OLAECHEA
RICARDO R. CORONA
HON. HARVEY RUVIN, CLERK
HON. MERCEDES M. PRIETO, CLERK
HON. JOHN W. THORNTON, JR., JUDGE

